APPENDIX

Case: 19-50056, 02/11/2020, ID: 11592709, DktEntry: 38-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
FEB 11 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

U.S. COURT OF APPEALS

No. 19-50056
D.C. No. 3:18-cr-07138-LAB-1

v.
MAXIMO FLORES-LEZAMA, AKA
Maximo Lesama Flores, AKA Maxino
Flores-Lezama, AKA Maximo FloresLezaman,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Southern District of California
Larry A. Burns, District Judge, Presiding
Submitted February 4, 2020**
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

Maximo Flores-Lezama appeals from the district court’s judgment and
challenges the 24-month custodial sentence and 1-year term of supervised release
imposed following revocation of supervised release. We have jurisdiction under

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 19-50056, 02/11/2020, ID: 11592709, DktEntry: 38-1, Page 2 of 3

28 U.S.C. § 1291, and we affirm.
Flores-Lezama contends that the district court erred by imposing the
custodial sentence to punish him for the conduct underlying the revocation. We
review for plain error, see United States v. Valencia-Barragan, 608 F.3d 1103,
1108 (9th Cir. 2010), and conclude that there is none. The record reflects that the
district court relied on only proper sentencing factors, including Flores-Lezama’s
significant immigration and criminal history, and the need to afford adequate
deterrence. See 18 U.S.C. § 3583(e); United States v. Simtob, 485 F.3d 1058,
1062-63 (9th Cir. 2007). The within-Guidelines sentence is also substantively
reasonable in light of the 18 U.S.C. § 3583(e) sentencing factors and totality of the
circumstances. See Gall v. United States, 552 U.S. 38, 51 (2007).
Flores-Lezama also argues that the district court procedurally erred by
imposing a term of supervised release without expressly finding that supervision
would serve as an additional measure of deterrence and protection. Reviewing for
plain error, see Valencia-Barragan, 608 F.3d at 1108, we conclude that there is
none. The record reflects that the district court was aware of U.S.S.G. § 5D1.1 and
adequately explained the sentence. See United States v. Daniels, 541 F.3d 915,
922 (9th Cir. 2008). Further, in light of the district court’s concerns with deterring
Flores-Lezama from future criminal conduct, he has not shown a reasonable
probability that the district court would not have imposed a supervised release term

2

19-50056

Case: 19-50056, 02/11/2020, ID: 11592709, DktEntry: 38-1, Page 3 of 3

had it explicitly discussed the need for supervised release. See United States v.
Dallman, 533 F.3d 755, 762 (9th Cir. 2008).
AFFIRMED.

3

19-50056

